CERTIFICATE OF SERVICE

No. 19-

BRAYAN JASSIEL LEYVA-PERAZA,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On this date, November 2, 2020, as required by Supreme Court Rule 29, I, amember
of the Bar of this Court representing the party on whose behalf service is made and the
attorney appointed to represent that party under the Criminal Justice Act of 1964, 18 U.S.C.
ยง 3006A(d)(6), caused to be served the enclosed Motion for Leave to Proceed Jn Forma
Pauperis and Petition for Writ of Certiorari on the Respondent by depositing an envelope
containing one copy of each of the above documents in the United States Postal Service first-
class mail system properly addressed to counsel of record for the Respondent:

Solicitor General of the United States
Department of Justice

950 Pennsylvania Avenue NW, Room 5614
Washington, DC 20530-001

 

  

'S OF J. SCOTT SULLIVAN
22211 I.H. 10 West, SUITE 1206
SAN ANTONIO, TEXAS 78257

(210) 722-2807

 
